Ti

C@OCKLE

Le 2 al Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-99

NORTHERN KENTUCKY
AREA DEVELOPMENT DISTRICT,
Petitioner,
v.
DANIELLE SNYDER,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY IN SUPPORT OF

PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2121 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of October, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

aoe, ben C lle Qudiw-h, Chhe

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38869

 
